Eleventh Circuit’s decision below

United States v. Hart, 801 Fed.Appx. 737 (2020)

801 Fed.Appx. 737 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure
32.1 generally governing citation
of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.
Ct. of App. 11th Cir. Rule 36-2.
United States Court of
Appeals, Eleventh Circuit.
UNITED STATES of
America, Plaintiff-Appellee,
v.
Elijah HART, Defendant-Appellant.
No. 18-12415
|
Non-Argument Calendar
|
(April 16, 2020)
Attorneys and Law Firms
Peter J. Sholl, U.S. Attorney Service - Middle
District of Florida, U.S. Attorney's Office,
Tampa, FL, for Plaintiff-Appellee
Martin DerOvanesian, Federal Public
Defender, Federal Public Defender's Office,
Fort Myers, FL, Jenny L. Devine, Federal
Public Defender's Office, Tampa, FL,
Rosemary Cakmis, Federal Public Defender's
Office, Orlando, FL, Donna Lee Elm, Law
Practice of Donna Elm, Cottonwood, AZ, for
Defendant-Appellant
Appeal from the United States District Court
for the Middle District of Florida, D.C. Docket
No. 2:16-cr-00110-JES-CM-1

Before JILL PRYOR, GRANT and HULL,
Circuit Judges:
Opinion
PER CURIAM:
Elijah Hart appeals his conviction for accessing
with intent to view child pornography in
violation of

18 U.S.C. § 2252(a)(4)(B) and

(b)(1). On appeal, he argues that the district
court erred in denying his motion to suppress
evidence discovered pursuant to a nationwide
warrant issued out of the Eastern District of
Virginia, which authorized agents to use a
network investigative technique (“NIT”) to
track down patrons of a child-pornography
website. According to Hart, the search was
unreasonable because the magistrate judge
*738 in the Eastern District of Virginia who
issued the NIT warrant lacked the authority
to authorize the use of NIT software on
users located outside of that district. See 28
U.S.C. § 636(a); Fed. R. Crim. P. 41(b). The
government moved for summary affirmance in
this case, arguing that our recent decision in
United States v. Taylor, 935 F.3d 1279 (11th Cir.
2019), cert. denied, ––– U.S. ––––, ––– S.Ct.
––––, ––– L.Ed.2d ––––, 2020 WL 1124516
(Mar. 9, 2020) (19-7581), forecloses Hart’s
challenge. We agree with the government.
Summary disposition is appropriate where (1)
time is of the essence, such as “situations where
important public policy issues are involved
or those where rights delayed are rights
denied,” (2) “the position of one of the parties
is clearly right as a matter of law so that there
can be no substantial question as to the outcome
of the case,” or (3) “the appeal is frivolous.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

1A

United States v. Hart, 801 Fed.Appx. 737 (2020)

Groendyke Transp., Inc. v. Davis, 406 F.2d
1158, 1162 (5th Cir. 1969). 1
1

We are bound by cases decided by the
former Fifth Circuit before October 1,
1981.
Bonner v. City of Prichard,
661 F.2d 1206, 1209 (11th Cir. 1981)
(en banc).

We recently considered another defendant’s
challenge to evidence secured pursuant to
the same NIT warrant. See Taylor, 935 F.3d
at 1281. In Taylor, we agreed with the
defendant that the NIT warrant was void ab
initio because the magistrate judge lacked
the authority to issue a warrant authorizing
the use of NIT software on users located
outside of that district. Id. Because the
warrant was void ab initio, we held that the
government’s subsequent search that purported
to rely on it therefore was warrantless and thus
presumptively unreasonable under the Fourth
Amendment. Id. We then determined that the
evidence obtained pursuant to the NIT warrant
did not need to be suppressed because the FBI
agents who obtained the search warrant had
acted in good faith and without any intent to
deceive the magistrate judge. Id. at 1292-93.
Summary affirmance is appropriate here
because in light of Taylor the government’s
position is clearly correct as a matter of
law. 2 Although the search was presumptively
unreasonable under the Fourth Amendment,
Taylor establishes that the good-faith exception
to the warrant requirement applies. See id. at
End of Document

1292-93. We acknowledge that in his brief
Hart has raised an argument that the goodfaith exception should not apply based on
a particular piece of evidence that we did
not discuss in Taylor—a 2009 Department of
Justice manual instructing agents that they
needed to obtain multiple warrants if they
believed a network search would retrieve
data stored in multiple locations. Our prior
precedent rule nonetheless dictates that we are
bound to follow Taylor and conclude that the
agents acted in good faith. See United States
v. Gillis, 938 F.3d 1181, 1198 (11th Cir. 2019)
(“[T]here is no exception to the rule where the
prior panel failed to consider arguments raised
before a later panel.”).
2

Hart filed his appellant’s brief in this
case before we decided Taylor. After
we decided Taylor, the government
moved for a summary affirmance. Hart
filed no opposition to the government’s
motion.

Given our binding decision in Taylor, we
conclude that there is no substantial question
about the outcome of the case. We thus
GRANT the government’s motion for summary
affirmance. See
Groendyke Transp., Inc.,
406 F.2d at 1162. In addition, we DENY
the government’s motion to stay the briefing
schedule as moot.
All Citations
801 Fed.Appx. 737 (Mem)
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

2A

Eleventh Circuit’s decision,
United States v. Taylor

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

935 F.3d 1279
United States Court of
Appeals, Eleventh Circuit.
UNITED STATES of
America, Plaintiff - Appellee,
v.
James Ryan TAYLOR,
Defendant - Appellant.
United States of America,
Plaintiff - Appellee,
v.
Steven Vincent Smith,
Defendant - Appellant.
No. 17-14915, No. 18-11852
|
(August 28, 2019)
|
Corrected September 4, 2019
Synopsis
Background: Defendants charged with
receiving child pornography and with
possessing and accessing child pornography
with the intent to view it moved to suppress
evidence against them. The United States
District Court for the Northern District of
Alabama, No. 4:16-cr-00312-VEH-JHE-1 and
No. 2:16-cr-00203-KOB-JEO-1, Karon O.
Bowdre, Chief Judge, 250 F.Supp.3d 1215,
denied the motions. Defendants appealed.

Holdings: The Court of Appeals, Newsom,
Circuit Judge, held that:
[1] network investigative technique (NIT) used
to obtain identifying information regarding

computer users in other parts of the United
States was not a “tracking device” within
meaning of rule providing for issuance of
tracking device warrants;
[2] warrant authorizing NIT was void
at issuance and ensuing search violated
defendants' Fourth Amendment rights; but
[3] good faith exception to exclusionary rule
applied to evidence seized in reliance on NIT
warrant.
Affirmed.
Tjoflat, Circuit Judge, filed opinion concurring
in part and dissenting in part.
Procedural Posture(s): Appellate Review;
Pre-Trial Hearing Motion.
West Headnotes (13)
[1]

Searches and
Seizures
Expectation of privacy
Telecommunications
communications

Computer

Users of the “dark web,” that is, the
part of the internet only accessible by
means of special software, allowing
users and website operators to
remain anonymous or untraceable,
purposefully shroud their browsing,
such that they have a reasonable
expectation of privacy in their online
movements to which the Fourth
Amendment's protections apply. U.S.
Const. Amend. 4.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

3A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

[2]

Criminal Law

then traced to physical address using
internet service provider's records.
Fed. R. Crim. P. 41(b)(4).

Review De Novo

Criminal Law
Evidence
wrongfully obtained
In reviewing a district court's denial
of a motion to suppress, the Court of
Appeals reviews factual findings for
clear error and the application of law
to those facts de novo.

2 Cases that cite this headnote
[5]

Criminal Law
Evidence
obtained in violation of rules or
regulations in general

1 Cases that cite this headnote
[3]

Criminal Law

While constitutional violations may
merit suppression, mere technical
noncompliance with a procedural
rule results in the exclusion of
evidence only when: (1) there was
prejudice in the sense that the search
might not have occurred or would
not have been so abrasive if the
rule had been followed, or (2)
there is evidence of intentional and
deliberate disregard of a provision in
the rule.

Review De Novo

When the facts are undisputed, the
Court of Appeals simply reviews the
legality of a search de novo.

[4]

Telecommunications
Judicial
authorization in general
Network investigative technique
(NIT) used to obtain identifying
information regarding computer
users or administrators in other
parts of the United States and
send that information back to
a government-controlled computer
located in Eastern District of Virginia
was not a “tracking device” within
meaning of the rule providing for
issuance of tracking device warrants
to track movement of person or
property outside district, since NIT
did not reveal locational information
tracking movement of person or
object; rather, it performed onetime extraction of non-locational
identifying information which was

Criminal Law
Necessity of
Constitutional Violation in General

[6]

Telecommunications
Judicial
authorization in general
Magistrate judge exceeded her
statutory jurisdiction in issuing
warrant authorizing use of network
investigative technique (NIT) to
obtain
identifying
information
regarding computer users or
administrators in other parts of
the United States and send that
information back to governmentcontrolled computer located in
Eastern District of Virginia, and,
thus, NIT warrant was void at

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

4A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

issuance and ensuing search violated
defendants' Fourth Amendment
rights, where NIT warrant did not fall
within ambit of rule providing for
issuance of tracking device warrants,
and there was no other rule that gave
magistrate judge authority to issue
NIT warrant. U.S. Const. Amend. 4;
28 U.S.C.A. § 636(a)(1); Fed. R.
Crim. P. 41(b).
6 Cases that cite this headnote
[7]

Searches and
Authority to Issue
Seizures
A search warrant issued in defiance
of the statutory limitations on the
jurisdiction of a federal magistrate
judge is void.
636(a).

28 U.S.C.A. §

1 Cases that cite this headnote
[8]

Criminal Law
Operation and
extent of, and exceptions to, the
exclusionary rule in general
The remedy of exclusion of
evidence obtained in violation of
the Fourth Amendment does not
follow automatically; society must
swallow the bitter pill of suppression
when necessary, but only when the
benefit of exclusion outweighs its
substantial social costs. U.S. Const.
Amend. 4.
1 Cases that cite this headnote

[9]

Criminal Law
Exceptions
Relating to Defects in Warrant
What matters for purposes of the
exclusionary rule and its good-faith
exception is not the validity of
the warrant in fact, but, rather,
the validity of the warrant as it
would have reasonably appeared to
an officer tasked with executing it.
U.S. Const. Amend. 4.
2 Cases that cite this headnote

[10] Criminal Law
Operation and
extent of, and exceptions to, the
exclusionary rule in general
The exclusionary rule is concerned
with deterring officer misconduct
and punishing officer culpability, not
with setting judges straight. U.S.
Const. Amend. 4.

[11] Criminal Law
Exceptions
Relating to Defects in Warrant
So long as an officer could
reasonably have thought that the
warrant was valid, the specific
nature of the warrant's invalidity
is immaterial with respect to
the exclusionary rule. U.S. Const.
Amend. 4.

[12] Criminal Law
Exceptions
Relating to Defects in Warrant
In light of the exclusionary rule's
purpose of deterring culpable police

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

5A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

misconduct, there is no reason
to distinguish between good faith
reliance on a void warrant and any
other warrant later deemed defective,
and, thus, the good faith exception
to the exclusionary rule can apply
when police officers reasonably rely
on a warrant later determined to
have been void ab initio. U.S. Const.
Amend. 4.
4 Cases that cite this headnote
[13] Criminal Law
Electronic
surveillance cases
Good faith exception to exclusionary
rule applied to evidence of child
pornography seized in reliance
on search warrant authorizing
use of network investigative
technique (NIT) to obtain identifying
information regarding computer
users or administrators in other parts
of the United States and send that
information back to governmentcontrolled computer located in
Eastern District of Virginia, although
warrant was void at issuance, where
officers did not intentionally mislead
magistrate judge into believing
property to be searched was located
within district; rather, application
and affidavit sufficiently disclosed
bounds of intended search, and
officers acted in reasonable reliance
on resulting warrant. U.S. Const.
Amend. 4.
4 Cases that cite this headnote

Attorneys and Law Firms
*1281 Manu Balachandran, AUSA, Michael
B. Billingsley, Praveen S. Krishna, U.S.
Attorney Service - Northern District of
Alabama, U.S. Attorney's Office, Birmingham,
AL, for Plaintiff - Appellee.
Kevin L. Butler, Glennon Fletcher Threatt, Jr.,
Allison Case, Tobie John Smith, Ebony Glenn
Howard, Assistant Federal Public Defender,
Federal Public Defender, Birmingham, AL, for
Defendant - Appellant.
Appeals from the United States District Court
for the Northern District of Alabama, D.C.
Docket No. 4:16-cr-00312-VEH-JHE-1, D.C.
Docket No. 2:16-cr-00203-KOB-JEO-1,
Before TJOFLAT and NEWSOM, Circuit
Judges, and ANTOON, * District Judge.
*

Honorable John Antoon II, United
States District Judge for the Middle
District of Florida, sitting by
designation.

Opinion
NEWSOM, Circuit Judge:
James Taylor and Steven Smith are the latest
in a long line of child-pornography consumers
to argue that the evidence of their crimes
should be suppressed because the warrant that
led to its discovery—issued by a magistrate
judge in the Eastern District of Virginia but
purporting to authorize a nationwide, remoteaccess computer search—violated the Fourth

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

6A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

Amendment. By our count, we become today
the eleventh (!) court of appeals to assess
the constitutionality of the so-called “NIT
warrant.” Although the ten others haven't all
employed the same analysis, they've all reached
the same conclusion—namely, that evidence
discovered under the NIT warrant need not
be suppressed. We find no good reason to
diverge from that consensus here, but the case
nonetheless calls for careful consideration, as it
implicates several important issues.
As an initial matter, did the NIT warrant
violate Federal Rule of Criminal Procedure
41(b), which specifies where and in what
circumstances a magistrate judge may issue
a warrant—and relatedly, if the warrant did
violate Rule 41(b), was that violation of
constitutional magnitude? We hold that because
the magistrate judge's actions exceeded not
only Rule 41(b) but also her statutorily
prescribed authority under the Federal
Magistrates Act, 28 U.S.C. § 636(a)—which
circumscribes the scope of a magistrate judge's
jurisdiction—the warrant was void ab initio,
rendering any search purporting to rely on it
warrantless and thus presumptively unlawful
under the Fourth Amendment.
That leads us to the question of remedy, which
we take in two parts: First, is exclusion required
—without regard to the reasonableness of the
officers' reliance—where, as here, the warrant
was void from the outset, as Taylor and Smith
urge? Or, as the government contends, should
a void *1282 warrant be treated no differently
from other defective warrants, such that the
good-faith exception to the exclusionary rule
can still apply? We hold that, because the
exclusionary rule is concerned solely with

deterring culpable police misconduct—and
not at all with regulating magistrate judges'
actions—void and voidable warrants should be
treated no differently; accordingly, an officer's
reasonable reliance on the former, like the
latter, can provide the basis for applying the
good-faith exception.
Second, even if the good-faith exception can
apply when an officer relies on a void warrant,
should the exception apply in the particular
circumstances of this case? We hold that the
officers' warrant application here adequately
disclosed the nature of the technology at issue
and the scope of the intended search, that the
officers reasonably relied on the magistrate
judge's determination that the search was
permissible, and, accordingly, that the goodfaith exception applies in this case.

I
A
We begin with a bit of context. In the normal
world of web browsing, an internet service
provider assigns an IP address—a unique
numerical identifier—to every computer that it
provides with internet access. Websites can log
IP addresses to keep track of the computers
that visit, in essence creating a digital guest
book. Internet browsing, therefore, isn't quite
as private as most people think—it's actually
pretty easy, for instance, for law enforcement
to find out who visited what sites, when, and
for how long simply by subpoenaing IP-address
logs from service providers.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

7A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

Not so when it comes to the “dark web,”
the part of the internet “only accessible by
means of special software, allowing users and
website operators to remain anonymous or
untraceable.” Blog.OxfordDictionaries.com. 1
“The Onion Router”—usually abbreviated
“Tor”—is one such software program. Tor,
which was the brainchild of the U.S. Navy
but has since been released to the public,
works by routing a user's webpage requests
through a series of computer servers operated
by volunteers around the globe, rendering
the user's IP address essentially unidentifiable
and untraceable. In the words of the folks
who currently administer the “Tor Project,” a
Massachusetts-based § 501(c)(3) organization
responsible for maintaining Tor, you might
think of what Tor does as “using a twisty, hardto-follow route in order to throw off someone
who is tailing you—and then periodically
erasing your footprints.” 2
1

2

See also Ahmed Ghappour, Searching
Places Unknown: Law Enforcement
Jurisdiction on the Dark Web, 69
Stan. L. Rev. 1075, 1087 (2017)
(“The dark web is a private global
computer network that enables users
to conduct anonymous transactions
without revealing any trace of their
location.”).
See Lee Matthews, What Tor Is, and
Why You Should Use It to Protect Your
Privacy, Forbes (Jan. 27, 2017, 2:30
p.m.), https://www.forbes.com/sites/
leemathews/2017/01/27/what-is-torandwhy-do-people-use-it/
#3186d5387d75 (last visited Aug.
27, 2019); see also Tor Project,

https://2019.www.torproject.org/
projects/torbrowser.html.en
(“[Tor]
prevents somebody watching your
Internet connection from learning what
sites you visit, it prevents the sites
you visit from learning your physical
location, and it lets you access sites
which are blocked.”) (last visited Aug.
27, 2019).
As you can imagine, Tor has plenty
of legitimate uses—think military and
law-enforcement officers carrying out
investigations, journalists seeking to maintain
anonymity, and ordinary citizens researching
embarrassing topics. As you can also imagine,
Tor has spawned—and effectively enables
—a cache of unsavory sites for blackmarket trading, child-pornography file-sharing,
*1283 and other criminal enterprises. This is
so because, in addition to allowing users to
access public websites without leaving a trail,
Tor also hosts a number of so-called “hidden
services,” i.e., sites accessible only through Tor.
You can't just Google a hidden service; rather,
a user can access one of these Tor-specific sites
only by knowing its exact URL address. Most
Tor-site addresses comprise a random jumble
of letters and numbers followed by the address
“.onion”—in place, say, of “.com” or “.org”—
and are shared via message-board postings on
the regular internet or by word of mouth.
The hidden-service page at issue here,
“Playpen,”
was
a
child-pornographydistribution site accessible only through Tor. At
the time the FBI began monitoring Playpen,
the site contained more than 95,000 posts,
had 160,000 members, and hosted up to 1,500
visitors per day. The FBI monitored the site
for several months until, based on a foreign-

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

8A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

government tip, it found and arrested the
administrator. Rather than shuttering Playpen
immediately, the FBI covertly took control
of the site and began operating it out of
a government server in Newington, Virginia,
hoping to snare more users.
As a means of ferreting out Playpen visitors
whose identities were masked by Tor, the FBI
sought to deploy government-created malware
—specifically, a computer code called the
Network Investigative Technique (“NIT”)—
that would transmit user information back
to the FBI. Here's how the NIT worked:
When a Playpen user downloaded images from
a Tor-based site, the NIT would essentially
“hitchhike” along, invade the host computer,
and force it to send to the FBI (among
other information) the computer's IP address,
the computer's host name, and the username
associated with the computer. Based on that
information, the FBI could identify the user's
internet service provider and the computer
affiliated with the account that accessed
Playpen, thereby unmasking the user and
providing probable cause for the FBI to seek a
warrant to seize computers and hard drives.

B
To effectuate this plan, FBI Agent Douglas
Macfarlane submitted a search-warrant
application to a magistrate judge in the Eastern
District of Virginia, requesting authorization
to deploy the NIT. The application wasn't
a model of clarity or precision, particularly
regarding the issue that most concerns
us here—namely, the geographic scope
of the requested search authority. In the

case caption, the application described the
“property to be searched”—seemingly without
territorial restriction—as “COMPUTERS
THAT ACCESS upf45jv3bziuctml.onion,”
which we now know to be associated with
Playpen. Just below, however, in the body, the
application asserted a reasonable belief that
evidence of child-pornography-related crimes
was contained on property “located in the
Eastern District of Virginia.” As part of the
same statement—regarding the “property to
be searched”—the application referred to an
“Attachment A.” Attachment A in turn stated
that the NIT was “to be deployed on the
computer server ... operating the [Playpen]
website” and specified that the server was
“located at a government facility in the Eastern
District of Virginia.” Attachment A then went
on to state, though, that the goal of deploying
the NIT was to obtain information from
“[t]he activating computers ... of any user
or administrator who logs into [Playpen] by
entering a username and password.”
As is often the case, the NIT application
also referenced an attached affidavit.
Agent Macfarlane's affidavit summarized the
applicable law, explained numerous technical
terms of art, and described Tor *1284
and the “Target Website”—i.e., Playpen. On
page 29 of 31, under the bolded heading
“SEARCH AUTHORIZATION REQUESTS,”
the affidavit stated, for the first time expressly,
that “the NIT may cause an activating computer
—wherever located—to send to a computer
controlled by or known to the government”
certain information, including the IP address
and host name. 3

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

9A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

3

The warrant also explained that the NIT
would send the following information:
the unique identifier that distinguishes
the data on the host computer from
that of other computers, the type of
operating system the host computer is
running, whether the NIT has already
been downloaded to the host computer,
an active operating system username,
and a Media Access Control address.

A magistrate judge in the Eastern District
of Virginia signed the warrant and the FBI
deployed the NIT.

C
Not long thereafter, NIT-transmitted data
revealed to the FBI that a certain Playpen user
was linked to a computer with the host name
“RyansComputer.” After the user accessed
several images of child pornography, the FBI
sent an administrative subpoena to the user's
internet service provider and discovered that
the IP address associated with the computer
was assigned to James Taylor in Birmingham,
Alabama. A magistrate judge in the Northern
District of Alabama then authorized a search
warrant for Taylor's residence, where the FBI
seized Taylor's laptop, hard drive, and USB
drive. After analyzing the hardware twice, the
FBI found what it was looking for.
Steven Smith's Playpen activities were
discovered in a nearly identical way. As in
Taylor's case, the NIT revealed that someone
had used Smith's computer and IP address
to log into Playpen. Based on the NIT data,
the FBI subpoenaed records from an internet

service provider and used that information
to secure a warrant from a magistrate
judge in the Northern District of Alabama,
allowing officers to search Smith's residence
in Albertville, Alabama. The search revealed
child-pornography images on a thumb drive.
After arresting Smith, the officers obtained a
search warrant for his office and seized his
work computer, which also contained child
pornography.
Taylor and Smith were charged with receiving
child pornography under
18 U.S.C. §
2252A(a)(2) and with possessing and accessing
child pornography with the intent to view
it under

18 U.S.C. § 2252A(a)(5)(B) &

(b)(2). They both moved to suppress the
evidence against them, asserting, as relevant
here, that the NIT warrant violated the
Fourth Amendment, Federal Rule of Criminal
Procedure 41(b), and the Federal Magistrates
Act, 28 U.S.C. § 636(a), and, accordingly,
that the seized images should be suppressed as
fruit of the poisonous tree. The district court in
each case denied the motion to suppress. Both
courts agreed that the NIT warrant violated the
Fourth Amendment—and was thus void—but
declined to suppress the evidence on the ground
that the searches, and the resulting seizures,
fell within the good-faith exception to the
exclusionary rule. Both defendants appealed,
and their cases were consolidated for review
and decision.

II
[1] [2] [3] All here agree that the NIT's
extraction and transmission of Taylor's and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8 10A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

Smith's information was a “search” within
the meaning of the Fourth Amendment. U.S.

expectation of privacy in their online
“movements.” See
United States
v. Davis, 785 F.3d 498, 507 (11th
Cir. 2015) (explaining that the
Fourth Amendment's protections apply
where an individual has exhibited
“a subjective expectation of privacy”
that society recognizes as reasonable
(citation omitted)).

4

Const. amend. IV. All likewise *1285 agree
that no exigency or other exception exempted
the FBI from the usual requirement to obtain a
search warrant. See United States v. Cooks, 920
F.3d 735, 741 (11th Cir. 2019) (“[W]arrantless
searches are presumptively unreasonable,
‘subject only to a few specifically established
and well-delineated exceptions.’ ” (quoting
Katz v. United States, 389 U.S. 347, 357, 88
S.Ct. 507, 19 L.Ed.2d 576 (1967))). There, the
agreement ends. The parties vigorously dispute
whether the NIT warrant was valid and, if not,
whether (and to what extent) that fact should
bear on the admissibility of the evidence found.
Accordingly, we are faced with the following
issues, each with its own twists and turns: (1)
Did the NIT warrant violate Federal Rule of
Criminal Procedure 41(b) and, if so, did it
likewise violate the Fourth Amendment? And
(2) if the NIT warrant did run afoul of the
Fourth Amendment, does the exclusionary rule

5

In reviewing a district court's denial
of a motion to suppress, we review
factual findings for clear error and
the application of law to those facts
de novo. United States v. Ramirez,
476 F.3d 1231, 1235 (11th Cir.
2007). Where, as here, the facts are
undisputed, we simply review the
legality of a search de novo. United
States v. Phillips, 834 F.3d 1176, 1179
(11th Cir. 2016).

apply? 5

A

4

1

That Taylor and Smith used Tor
to download child pornography is
important because it takes this case
out of third-party-doctrine land. See
Smith v. Maryland, 442 U.S. 735,
99 S.Ct. 2577, 61 L.Ed.2d 220
(1979). Instead of traveling along the
equivalent of “public highways” (by
browsing the open internet) or leaving
the equivalent of a calling card
at each website visited (as with a
normal internet search), Tor users
purposefully shroud their browsing,
such that they have a reasonable

Federal Rule of Criminal Procedure 41(b),
titled “Venue for a Warrant Application,” both
outlines the situations in which a magistrate
judge may issue a warrant for a search within
her district and specifies the more limited
circumstances in which she may issue a warrant
for a search outside her district. With respect
to the former, Rule 41(b)(1) states that “a
magistrate judge with authority in the district ...
has authority to issue a warrant to search for
and seize a person or property located within
the district.” Fed. R. Crim. P. 41(b)(1). It
is undisputed, though, that the NIT warrant

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9 11A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

sought authority to search for information
outside the territorial confines of the Eastern
District of Virginia. And the parties agree that,
for present purposes, Rule 41(b)(4)—which
authorizes “tracking device” warrants—is the
only provision that could have empowered the
magistrate judge to authorize the specific outof-district search in this case. That rule permits
a magistrate “to issue a warrant to install within
the district a tracking device” to “track the
movement of a person or property located
within the district, outside the district, or both.”
Fed. R. Crim. P. 41(b)(4) (emphasis added). 6
Accordingly, the NIT warrant complies with
Rule 41(b) only if we conclude that it was
issued in accordance with subsection (b)(4). 7
6

7

As it turns out, Rule 41(b)
has since been amended to add
a provision—subsection (b)(6)—for
remote electronic searches of the sort
at issue in this case. See infra Section
II.B.2.
No court of appeals has found that
the NIT warrant fits within the
tracking-device exception, although
this argument has persuaded a few
district courts. See United States v.
Taylor, 250 F. Supp. 3d 1215, 1222–
23 (N.D. Ala. 2017) (compiling district
and appellate court holdings on NITwarrant searches).

We find two mismatches—one formal (but
telling) and the other substantive. Initially,
as a matter of form, although the *1286
government now defends the NIT warrant
on a tracking-device basis, it conspicuously
didn't seek the warrant under Rule 41(b)

(4). Tracking-device warrants issued under
subsection (b)(4) are generally requested
pursuant to a specialized “Application for
a Tracking Warrant.” 8 Here, though, the
FBI seems to have sought the NIT warrant
under Rule 41(b)(1)'s general provision for
warrants authorizing in-district searches. The
warrant application's cover sheet represented
that the FBI wished to search property “located
in the Eastern District of Virginia,” and
neither the application nor the accompanying
affidavit mentioned the term “tracking device”
or otherwise indicated that the application
sought authorization under subsection (b)(4).
The government's revisionism on appeal—
invoking Rule 41(b)(4) to defend what was,
by all accounts, a Rule 41(b)(1) application—
undermines its position that the Rule's trackingdevice provision sanctions the NIT warrant.
8

See, e.g., Administrative Office
of U.S. Courts, Criminal Forms
AO
102
(2009)
&
AO
104 (2016), http://www.uscourts.gov/
forms/criminal-forms (last visited Apr.
26, 2019).

Moreover, and in any event, we reject the
government's tracking-device argument on the
merits. For Rule 41 purposes, a “tracking
device” is “an electronic or mechanical device
which permits the tracking of the movement of
a person or object.” 18 U.S.C. § 3117(b); see
also Fed. R. Crim. P. 41(a)(2)(E) (explaining
that “ ‘[t]racking device’ has the meaning set
out in 18 U.S.C. § 3117(b)”). The government
contends that the NIT constitutes a tracking
device because “just as a GPS tracker attached
to a car will send a receiver coordinates or
other signals with locational information, the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10 12A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

NIT augmented the content of Playpen and sent
locational information back to a governmentcontrolled computer.” Br. of Appellee at 15.
[4] We disagree. The NIT didn't “track”
anything. Rather, the NIT performed a onetime extraction of information—including a
computer's IP address, username, and other
identifying material—which it transmitted to
the FBI. Of course, the identifying information
that the NIT extracted and sent was then
traced to a physical address using an
internet service provider's records. But that
the FBI eventually used the NIT-transmitted
information to discover additional facts that, in
turn, enabled it to then determine a Playpen
user's location in no way transformed the initial
information transmittal into “tracking.” Indeed,
if the term “tracking device” included every
gadget capable of acquiring and transmitting
information that could somehow, in some way,
aid in identifying a person's location, the term
would be unimaginably broad, including any
phone or camera capable of sending a photo,
as images of buildings, street signs, or other
landmarks can surely be used to identify a
location. 9
9

The government also points out that
the NIT was deployed from a computer
in the Eastern District of Virginia
—which, it says, is the equivalent
of a tracking device being “installed
within the district.” But a GPS tracker
that is physically attached to an item
within the territorial confines of a
particular district is clearly “install[ed]
within” that district. By contrast, the
NIT software, although deployed and
activated from a government computer

in the Eastern District of Virginia, was
not “installed within” that district—it
was installed on suspects' computers
outside of the district.
We hold that the NIT is not a “tracking
device” within the meaning of Federal Rule
of Criminal Procedure 41(b), and we reject
the government's post hoc attempts to classify
it as such. Because the NIT warrant was not
authorized by any of Rule 41(b)'s applicable
subsections, the warrant violated the Rule.

*1287 2
[5] So, what effect? While constitutional
violations may merit suppression—more on
that later—mere “technical noncompliance”
with a procedural rule results in the exclusion of
evidence only when (1) “there was ‘prejudice’
in the sense that the search might not have
occurred or would not have been so abrasive
if the rule had been followed,” or (2) “there is
evidence of intentional and deliberate disregard
of a provision in the Rule.” United States v.
Williams, 871 F.3d 1197, 1203 (11th Cir. 2017)
(citation omitted).
Which do we have here—a constitutional
violation or just a technical one? The
government says that the violation in this case
was merely technical because Rule 41(b) is
just a venue provision—it has nothing to do
with a magistrate's power or jurisdiction. The
government points out, for instance, that as of
2016, Rule 41(b) is no longer titled “Authority
to Issue a Warrant,” but rather “Venue for a
Warrant Application.” See Fed. R. Crim. P.
41(b). And, the argument goes, if Rule 41(b)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11 13A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

is an ordinary venue provision, a breach of
its provisions would not rise to the level of a
constitutional violation.
[6] Fair enough. As we've recently been
at pains to emphasize—following the
Supreme Court's lead—not every mandatory
proclamation or prohibition creates a
jurisdictional bar, and we are loath to
“jurisdictionalize” issues unnecessarily. See,
e.g., Orion Marine Constr., Inc. v. Carroll,
918 F.3d 1323, 1328–29 (11th Cir. 2019);
Sec'y, U.S. Dep't of Labor v. Preston, 873
F.3d 877, 881–82 (11th Cir. 2017). Here,
though, jurisdiction is squarely in play: While
Rule 41(b) itself may address only venue,
the statute behind the rule—the Federal
Magistrates Act, 28 U.S.C. § 636—imposes
clear jurisdictional limits on a magistrate
judge's power.
Section 636(a) states that
magistrate judges “shall have within [their]
district[s]” the “powers ... conferred ... by law
or by the Rules of Criminal Procedure.” 28
U.S.C. § 636(a)(1) (emphasis added). Because
no one contends that any law or Rule other
than Rule 41(b) gave the magistrate judge
the authority to issue the NIT warrant in this
case, when the magistrate issued the warrant
outside of Rule 41(b)'s ambit, she necessarily
transgressed the limits of her jurisdiction.
[7] We aren't breaking any new ground here.
As now-Justice Gorsuch explained during
his tenure on the Tenth Circuit, § 636(a)
“expressly—and exclusively—refers to the
territorial scope of a magistrate judge's power
to adjudicate” and, further, is “found in
Title 28 of the U.S. Code—the same title
as the statutes that define a district court's

jurisdiction.” United States v. Krueger, 809
F.3d 1109, 1122 (10th Cir. 2015) (Gorsuch,
J., concurring). Or, as the Ninth Circuit put
it, “federal magistrates are creatures of [ §
636(a)], and so is their jurisdiction.” N.L.R.B.
v. A-Plus Roofing, Inc., 39 F.3d 1410, 1415
(9th Cir. 1994); see also United States v.
Hazlewood, 526 F.3d 862, 864 (5th Cir. 2008)
(“In the Federal Magistrates Act, 28 U.S.C. §
636, Congress conferred jurisdiction to federal
magistrate[ ]judge[s].”). Thus, as § 636(a) is
the sole source of a magistrate judge's warrant
authority, a warrant issued in defiance of its
jurisdictional limitations is void—“no warrant
at all.” Krueger, 809 F.3d at 1118 (Gorsuch,
J., concurring).
Krueger was an easier case
To be fair,
—there, a magistrate judge in one district
purported to authorize a search in an
adjacent district, in which she clearly had no
jurisdiction. The magistrate judge here, by
contrast, issued a warrant purporting to allow
a search of computers “wherever located”—
which, of necessity, included her own district.
But the fact that the warrant in its overbreadth
happened to sweep in *1288 the Eastern
District of Virginia along with the rest of the
nation doesn't cure the fact that it was issued
outside of the magistrate judge's statutorily
prescribed (and proscribed) authority in the
first place. Indeed, the idea that a warrant may
be issued partially from a place of statutorilygranted authority and partially from the great
beyond (with one foot inside and one foot
outside the lines, so to speak) strikes us as
nonsensical. Rather, it seems to us that a
magistrate judge must act either pursuant to the
authority granted her by statute or not, and thus

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12 14A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

have the authority either to issue a warrant (in
toto) or not.
10

10

Nor do we see a persuasive case for
“severing” the NIT warrant, so to
speak, along jurisdictional lines—such
that it might be deemed valid in the
Eastern District of Virginia, even if
invalid everywhere else, and thus not
void ab initio and in toto (to really
pour on the Latin). We are aware,
of course, that several courts have
held that a warrant can be severed
along what might loosely be called
subject-matter lines—i.e., with respect
to probable cause or particularity. See,
e.g., United States v. George, 975
F.2d 72, 79 (2d Cir. 1992) (“When
a warrant is severed (or redacted)
the constitutionally infirm portion—
usually for lack of particularity or
probable cause—is separated from
the remainder and evidence seized
pursuant to that portion is suppressed;
evidence seized under the valid portion
may be admitted.”). But the flaws in
the two situations, it seems to us,
are fundamentally different. Subjectmatter severance addresses an error
made by a properly empowered
official; the error that plagues the
NIT warrant is more fundamental—it
implicates the magistrate judge's power
to act in the first instance.

Because the NIT warrant was void at issuance,
the ensuing search was effectively warrantless
and therefore—because no party contends
that an exception to the presumptive warrant
requirement applies here—violative of the

Fourth Amendment. Accord United States
v. Werdene, 883 F.3d 204, 214 (3d Cir.),
cert. denied, ––– U.S. ––––, 139 S. Ct. 260,
202 L.Ed.2d 174 (2018);
United States v.
Horton, 863 F.3d 1041, 1050 (8th Cir. 2017),
cert. denied, ––– U.S. ––––, 138 S. Ct. 1440,
200 L.Ed.2d 721 (2018); United States v.
Henderson, 906 F.3d 1109, 1116 (9th Cir.
2018), cert. denied, ––– U.S. ––––, 139 S. Ct.
2033, 204 L.Ed.2d 232 (2019). 11
11

The government also contends—in
nearly identical terms in both cases—
that “[b]ecause the search of Taylor's
[and Smith's] computer[s] would have
been valid if a magistrate judge in
the Northern District of Alabama
had signed the NIT Warrant, any
Rule 41(b) violation did not cause
[them] prejudice” and suppression is
not necessary. Br. of Appellee at 34
(emphasis added) (Taylor); see also Br.
of Appellee at 29 (Smith). “Taylor [and
Smith] suffered no more of an intrusion
of [their] privacy,” the government
contends, “than [they] would have
if the FBI had searched [their]
computer[s] under a valid warrant.” Br.
of Appellee at 31 (Taylor); see also
Br. of Appellee at 28 (Smith). No.
Had the magistrate judge in the Eastern
District of Virginia acted within her
jurisdiction, the warrant could not have
extended to Alabama and the FBI
would not have identified Taylor or
Smith, nor would it have had probable
cause to apply for a second warrant to
search their homes.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13 15A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

B
So the search carried out under the NIT warrant
violated not just Rule 41 but also the Fourth
Amendment. But again: What effect? At last we
come to the question at the heart of the remedy
that Taylor and Smith seek. Can the goodfaith exception to the exclusionary rule apply
in a situation like this, where officers rely on
a warrant that is later determined to have been
void ab initio? And more specifically, does
the good-faith exception apply in the particular
circumstances of this case?

1
[8] The “exclusionary rule”—which operates
to bar the admission of evidence obtained
in violation of the Fourth Amendment—
appears nowhere in the Constitution's *1289
text. It is, the Supreme Court has said,
not “a personal constitutional right,” but
rather a “judicially created” remedy, whose
purpose is to “deter future Fourth Amendment
violations” and “compel respect for the
constitutional guaranty.”
Davis v. United
States, 564 U.S. 229, 236–37, 238, 131
S.Ct. 2419, 180 L.Ed.2d 285 (2011) (citation
omitted). This remedy, however, doesn't follow
automatically; society must swallow the “bitter
pill” of suppression when necessary,
id.
at 238, 131 S.Ct. 2419, but only when
the “benefit” of exclusion outweighs its
“substantial social costs,” Illinois v. Krull,
480 U.S. 340, 352–53, 107 S.Ct. 1160, 94
L.Ed.2d 364 (1987). The dual pillars of the
exclusion decision, the Supreme Court recently

emphasized, are deterrence and culpability:
“Police practices trigger the harsh sanction
of exclusion only when they are deliberate
enough to yield ‘meaningfu[l]’ deterrence, and
culpable enough to be ‘worth the price paid by
the justice system.’ ” Davis, 564 U.S. at 240,
131 S.Ct. 2419 (alteration in original) (quoting
Herring v. United States, 555 U.S. 135, 144,
129 S.Ct. 695, 172 L.Ed.2d 496 (2009)); see
also id. (suppression not warranted because
officer did not act “deliberately, recklessly, or
with gross negligence”).
The good-faith exception is a “judicially
created exception to this judicially created
rule.”

Id. at 248, 131 S.Ct. 2419. 12 In

United States v. Leon, the Supreme Court
explained that exclusion is not warranted when
police act “in objectively reasonable reliance”
on a subsequently invalidated search warrant
—in other words, when they act in “good
faith.” 468 U.S. 897, 922, 104 S.Ct. 3405, 82
L.Ed.2d 677 (1984). “ ‘[O]ur good-faith inquiry
is confined to the objectively ascertainable
question whether a reasonably well trained
officer would have known that the search was
illegal’ in light of ‘all of the circumstances.’
”

Herring, 555 U.S. at 145, 129 S.Ct. 695

(quoting Leon, 468 U.S. at 922 n.23, 104
S.Ct. 3405).
12

Although “good faith” is most often
framed as an “exception” to the
exclusionary rule, it is probably more
accurately described as a reason for
declining to invoke the exclusionary
rule in the first place. Compare, e.g.,
Davis, 564 U.S. at 238, 131 S.Ct.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14 16A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

2419 (“The Court has over time applied
this ‘good-faith’ exception across a
range of cases.” (emphasis added)),
with, e.g., id. at 239, 131 S.Ct. 2419
(“The question in this case is whether
to apply the exclusionary rule when the
police conduct a search in objectively
reasonable reliance on binding judicial
precedent.” (emphasis added)), and
Herring v. United States, 555
U.S. 135, 139, 129 S.Ct. 695, 172
L.Ed.2d 496 (2009) (characterizing the
question presented as “whether the
exclusionary rule should be applied”
when officers act in reasonable reliance
on a negligent police database error
(emphasis added)).
To date, the Supreme Court has applied
the good-faith exception when, among other
things, officers reasonably relied on a warrant
that was later deemed invalid for lack of
probable cause, see Leon, 468 U.S. at 922,
104 S.Ct. 3405, on a warrant that erroneously
appeared outstanding due to an error in a
court or police database, see
Arizona v.
Evans, 514 U.S. 1, 4, 115 S.Ct. 1185, 131
L.Ed.2d 34 (1995); Herring, 555 U.S. at
137, 129 S.Ct. 695, on a statute that was later
deemed unconstitutional, see Krull, 480 U.S.
at 352–53, 107 S.Ct. 1160, and on a judicial
decision that was later overruled, Davis, 564
U.S. at 232, 131 S.Ct. 2419. The Supreme
Court hasn't, however, directly addressed the
particular question before us today—whether
the good-faith exception can be applied to a
search conducted in reliance on a warrant that
was void from the outset.

Taylor and Smith insist that the void-voidable
distinction is critical. Reliance on a voidable
warrant—issued in error, perhaps, but by a
judge with jurisdiction to act—is different, they
contend, from reliance *1290 on a warrant that
was void from the get-go. Because the latter is
—as we've agreed—“no warrant at all,” Taylor
and Smith insist that reliance on it can't provide
an exception to the exclusionary rule. This is
so, they continue, because the “heart of the
good faith exception is [ ] officers' reliance on
a neutral third party's actions within the scope
of the third party's authority.” Br. of Appellant
Taylor at 29; Br. of Appellant Smith at 27.
[9] There is a certain logic to this argument:
In fact, there was never a valid warrant,
so the search was illegal all along. What
matters for exclusionary-rule and good-faith
purposes, though, isn't the validity of the
warrant “in fact,” but rather the validity of
the warrant as it would have reasonably
appeared to an officer tasked with executing
it. The appropriate question, therefore, is
whether, from the perspective of a reasonable
officer, there is any difference—for deterrence
or culpability purposes—between the warrant
issued in this case and the warrants issued in
Leon,

Evans, and

Herring?

[10] [11] We don't think so. The exclusionary
rule is concerned with deterring officer
misconduct and punishing officer culpability—
not with setting judges straight. See Herring,
555 U.S. at 142, 129 S.Ct. 695 (observing
that the “exclusionary rule was crafted to
curb police rather than judicial misconduct”).
Viewed from an officer's perspective, relying
on a facially valid warrant that, as it turns out,
was void from the beginning is no different

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15 17A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

from relying on a facially valid warrant that,
for instance, was later deemed improper based
on a dubious determination of probable cause,
see Leon, 468 U.S. at 925–26, 104 S.Ct.
3405, or appeared outstanding thanks only to
a database error, see Herring, 555 U.S. at
136–37, 129 S.Ct. 695. So long as an officer
could reasonably have thought that the warrant
was valid, the specific nature of the warrant's
invalidity is immaterial.
In so holding, we join every court of appeals to
consider the question, all of which have agreed
that the good-faith exception applies—and the
exclusionary rule doesn't—in a situation like
this. See United States v. Eldred, No. 17-3367cv, 933 F.3d 110, 121, 2019 WL 3540415,
at *8 (2d Cir. Aug. 5, 2019); United States
v. Ganzer, 922 F.3d 579, 587–90 (5th Cir.
2019), petition for cert. filed, No. 19-5339
(2019); United States v. Moorehead, 912 F.3d
963, 971 (6th Cir.), petition for cert. filed,
No. 19-5444 (2019);

Werdene, 883 F.3d

at 216–17; United States v. McLamb, 880
F.3d 685, 691 (4th Cir.), cert. denied, –––
U.S. ––––, 139 S. Ct. 156, 202 L.Ed.2d 95
(2018); United States v. Kienast, 907 F.3d
522, 527–28 (7th Cir. 2018), cert. denied,
––– U.S. ––––, 139 S. Ct. 1639, 203 L.Ed.2d
902 (2019); Henderson, 906 F.3d at 1118;
United States v. Levin, 874 F.3d 316, 323–
24 (1st Cir. 2017);

Horton, 863 F.3d at

1050; United States v. Workman, 863 F.3d
1313, 1319 (10th Cir. 2017), cert. denied,
––– U.S. ––––, 138 S. Ct. 1546, 200 L.Ed.2d
748 (2018). As the Sixth Circuit summarized,
“[t]he good-faith exception is not concerned
with whether a valid warrant exists, but instead
asks whether a reasonably well-trained officer

would have known that a search was illegal.”
Moorehead, 912 F.3d at 968. The Third Circuit
similarly explained the “fundamental flaw” in
the argument like the one that Taylor and
Smith make here: “[I]t does not appreciate the
distinction between the validity of the warrant
and the deterrence rationale of the exclusionary
rule and the good-faith exception.”
883 F.3d at 216.

Werdene,

[12] In light of the exclusionary rule's purpose
of deterring culpable police misconduct, there
is no reason to distinguish between goodfaith reliance on a void warrant and any
other warrant later deemed defective. We
thus hold that the good-faith exception to
the exclusionary rule can apply *1291 when
police officers reasonably rely on a warrant
later determined to have been void ab initio.

2
[13] Finally, then, to this particular case:
Having determined that the good-faith
exception can apply in situations involving
void warrants, the question remains whether
the exception should apply to the cases before
us today. In Leon, the Supreme Court laid
out several situations in which the good-faith
exception should not apply: (1) where the
magistrate judge was misled by information in
a warrant application that the applicant knew
was false or would have known was false but
for a reckless disregard of the truth; (2) where
the magistrate “wholly abandoned” her judicial
role; (3) where the affidavit supporting the
warrant application was “so lacking in indicia
of probable cause as to render official belief
in its existence entirely unreasonable”; or (4)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16 18A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

where the warrant was “so facially deficient”
that officers couldn't have reasonably presumed
it to be valid.

468 U.S. at 923, 104 S.Ct. 3405.

Here, Taylor and Smith contend—and the
dissent agrees—that the magistrate was,
within the meaning of
Leon, “misled by
information” in the application that the FBI
officers knew, or should have known, to be
false. The face of the application, they say,
prominently represented that the “property to
be searched” was “located in the Eastern
District of Virginia” and, more specifically,
asserted (in the incorporated Attachment A)
that the Playpen server was “located at a
government facility in the Eastern District of
Virginia.” Br. of Appellant Taylor at 42; Br.
of Appellant Smith at 41. It wasn't until page
29 of Agent Macfarlane's 31-page affidavit,
Taylor and Smith say, that the application
finally acknowledged that the NIT would
search computers “wherever located.” Br. of
Appellant Taylor at 42; Br. of Appellant Smith
at 41. This approach, they contend, shows that
the FBI intentionally misled the magistrate
judge and belies any claim to good-faith
reliance.
In responding that the good-faith exception
should apply, the government begins with the
contention that there is no deterrent benefit to
exclusion here because Rule 41 was recently
amended to add a new subsection to cover
remote-access warrants to search electronic
storage both within and outside of a magistrate
judge's district—i.e., precisely the sort of
search at issue in this case. 13 But that argument
cuts both ways. On the one hand, it indicates
that we needn't necessarily deter this particular
type of search on a going-forward basis. On the

other, the recent amendment of Rule 41 to allow
remote-access search warrants underscores that
Rule 41(b) did not permit these warrants at the
time the FBI deployed the NIT.
13

Rule 41(b)(6) now states in relevant
part: “[A] magistrate judge with
authority in any district where activities
related to a crime may have occurred
has authority to issue a warrant
to use remote access to search
electronic storage media and to
seize or copy electronically stored
information located within or outside
that district if ... the district where the
media or information is located has
been concealed through technological
means.”

Even so, we find no indication that the
FBI officers sought to deceive the magistrate
judge or otherwise acted culpably or in a
way that necessitates deterrence—and certainly
no indication of the sort of “deliberate[ ],
reckless[ ], or ... gross[ly] negligen[t]” conduct
that the Supreme Court has recently highlighted
as the focus of the exclusionary-rule/good-faith
inquiry.

Davis, 564 U.S. at 240, 131 S.Ct.

2419; see also

Herring, 555 U.S. at 144, 129

S.Ct. 695; Krull, 480 U.S. at 352–53, 107
S.Ct. 1160. While the NIT-warrant application
*1292 was perhaps not a model of clarity,
it seems clear to us that the officers did the
best they could with what they had—a general
application form that was perhaps ill-suited
to the complex new technology at issue. 14 It
is true, as Taylor and Smith emphasize, that
the face of the pre-printed warrant application
stated that “the property to be searched” was
“located in the Eastern District of Virginia.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17 19A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

It is also true that Attachment A, which
described the target property, reported that the
Playpen server was “located at a government
facility in the Eastern District of Virginia.”
That being said, there were indications that the
FBI was seeking more broad-ranging search
authority. As already noted, the case caption
referred generally to “COMPUTERS THAT
ACCESS” Playpen. Somewhat more clearly,
Attachment A explained that the NIT would
be “deployed on” the Playpen-operating server
located in the Eastern District of Virginia
as a means of “obtaining information” from
“activating computers,” defined as computers
“of any user or administrator who logs
into” the Playpen site. Finally, and most
importantly—if a bit more obscurely than
might have been ideal—Agent Macfarlane's
affidavit stated that “the NIT may cause
an activating computer—wherever located—to
send” identifying information to the FBI.
14

In concluding that the officers
intended to “hoodwink” the magistrate
judge, the dissent relies heavily
on DOJ's proposals to amend
Rule 41 to better address “remote
searches for ‘crimes involving Internet
anonymizing technology.’ ” Dissenting
Op. at 1296, 1300, (quoting Letter from
Mythili Raman, Acting Assistant Att'y
Gen., to Hon. Reena Raggi, Chair,
Advisory Comm. on the Crim. Rules
(Sept. 18, 2013)). Even setting aside
the dubious proposition that knowledge
of communications between the
“highest ranking officials in the
Criminal Division” and Federal Rules
Advisory Committee Chairs can be
imputed downstream to line-level law-

enforcement officers, see Dissenting
Op. at 1296–97, these communications
in no way demonstrate that the warrant
application here was made in bad faith.
We see no benefit to deterring officers
from attempting to describe cuttingedge countermeasures using the forms
and resources at their disposal while
department heads simultaneously seek
to amend the rules to better address
advancing technology. Cf. Eldred, 933
F.3d at 119–20, 2019 WL 3540415,
at *7; McLamb, 880 F.3d at 691.
The dissent's argument to the contrary
is based entirely on speculation about
what different government actors could
have known.
So, was the warrant application here perfect?
Not close. But does it evidence “chicanery,”
“duplicity,” and “gamesmanship”? See
Dissenting Op. at 1300, 1304. It doesn't. We
conclude that, in their totality, the application
and affidavit sufficiently disclosed the bounds
of the intended search. In light of the squarepeg/round-hole issue that they faced, the
officers did what we would hope and expect
—they fully disclosed the mechanics of the
intended search, left the constitutional call to
the magistrate judge, and acted in reasonable
reliance on the resulting warrant. 15 As already
explained, the “exclusionary rule *1293 was
crafted to curb police rather than judicial
misconduct.” Herring, 555 U.S. at 142, 129
S.Ct. 695. Because we don't find the officers'
behavior here culpable and see no deterrent
value in suppressing the evidence found on
Taylor's and Smith's computers, we find that the
good-faith exception to the exclusionary rule
applies in this case.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18 20A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

15

To the extent that the dissent suggests
that officers seeking a search warrant
have an affirmative obligation to
“flag” potential legal issues in their
application, we must respectfully
disagree. See, e.g., Dissenting Op.
at 1297 (stating that the officers
here “should have known ... that
the magistrate's jurisdiction to issue
the warrant was in doubt” and that
they “had an obligation to flag [this]
for the magistrate”). Law-enforcement
officers have a duty to lay out facts
—including jurisdictional facts—for
reviewing courts, not to anticipate and
articulate possible legal hurdles. The
warrant application here, particularly
when read in conjunction with Agent
Macfarlane's detailed 30-plus-page
affidavit, adequately—if imperfectly—
lays out the facts. See, e.g., Levin,
874 F.3d at 323 (determining that
there was “no benefit in deterring”
the government from “turn[ing] to the
courts for guidance” when faced with
a novel legal question such as whether
the NIT warrant could properly issue).

AFFIRMED.

TJOFLAT, Circuit Judge, concurring in part
and dissenting in part: 1
1
I concur in all of the majority opinion
except for part II.B.2.
As the majority points out, we are far from the
first court to consider whether the NIT warrant
passes constitutional muster. I agree with the

majority that it does not. The majority also
adds its voice to the unanimous chorus of ten
other courts of appeals who have found that,
regardless of any constitutional infirmity, the
exclusionary rule should not apply. On this
point, I must respectfully dissent.
The evidence obtained as a result of the NIT
warrant should be suppressed because the law
enforcement officials who sought the warrant
are not entitled to the good faith exception.
The officials knew or should have known that
there was an issue with jurisdiction and that the
search would occur outside the district. Yet, the
officials told the magistrate repeatedly that the
search would take place in the district. 2 If the
law condones this conduct, it makes a mockery
of the warrant process.
2

The only reference to a search that
potentially would occur outside the
district comes buried on page 29 of
the 31-page affidavit after repeated
representations by the officers that the
search would take place within the
district. See infra part III.
I.

First, some background on the exclusionary
rule. The purpose of the exclusionary rule “is
to deter future Fourth Amendment violations.”
Davis v. United States, 564 U.S. 229, 236–
37, 131 S.Ct. 2419, 180 L.Ed.2d 285 (2011).
But the point is “to deter police misconduct
rather than to punish the errors of judges and
magistrates.” United States v. Leon, 468 U.S.
897, 916, 104 S.Ct. 3405, 82 L.Ed.2d 677
(1984).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19 21A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

Courts look to all the officials involved in the
warrant process, including those who sought
the warrant in the first place. Id. at 923 n.24,
104 S.Ct. 3405 (“It is necessary to consider
the objective reasonableness, not only of the
officers who eventually executed a warrant, but
also of the officers who originally obtained it
or who provided information material to the
probable-cause determination.”). In this case,
the officials who sought the warrant include, at
least, the FBI agent who submitted the warrant
application and the Assistant U.S. Attorney
who reviewed it.
Whether to invoke the exclusionary rule
turns largely on “the flagrancy of the police
misconduct.” See

id. at 911, 104 S.Ct. 3405;

see also Herring v. United States, 555 U.S.
135, 143, 129 S.Ct. 695, 172 L.Ed.2d 496
(2009). Courts ask whether law enforcement
officials knew or should have known that their
conduct was unconstitutional. See

Herring,

555 U.S. at 143, 129 S.Ct. 695 (citing Illinois
v. Krull, 480 U.S. 340, 348–49, 107 S.Ct. 1160,
94 L.Ed.2d 364 (1987)).
Their conduct is evaluated under an
objective reasonableness standard: “whether
a reasonably well trained officer would
have known that the search was illegal in
light of all of the circumstances,” including
this “particular officer's knowledge and
experience.”
Id. at 145, 129 S.Ct. 695
(quotation omitted). This standard “requires
officers to have a reasonable knowledge of
*1294 what the law prohibits.”
U.S. at 919 n.20, 104 S.Ct. 3405.

Leon, 468

If, under this standard, courts determine that
law enforcement's conduct was deliberate,
reckless, or grossly negligent, exclusion is
likely warranted. Davis, 564 U.S. at 238, 131
S.Ct. 2419. Alternatively, if law enforcement
reasonably relied on a warrant, Leon, 468
U.S. at 922, 104 S.Ct. 3405, or on binding
judicial precedent, Davis, 564 U.S. at 249–
50, 131 S.Ct. 2419, exclusion is not warranted.
This is the so-called good faith exception, and
it makes sense: if law enforcement acted in
objectively reasonable reliance, the conduct
was not culpable—i.e., it wasn't deliberate,
reckless, or grossly negligent—so there is no
misconduct to deter.
That does not mean that whenever law
enforcement obtains a warrant, the good
faith exception applies. For example, if law
enforcement officials misled the magistrate
in the warrant application with material
information that they knew or should have
known was false, they are not entitled to good
faith. Leon, 468 U.S. at 923, 104 S.Ct. 3405
(“Suppression therefore remains an appropriate
remedy if the magistrate or judge in issuing
a warrant was misled by information in an
affidavit that the affiant knew was false or
would have known was false except for his
reckless disregard of the truth.”). That is what
happened here.
There is no question that law enforcement
made a false representation in the NIT warrant
application. On the application, the FBI agent
told the magistrate, in no uncertain terms, that
the property to be searched would be “located
in the Eastern District of Virginia.” Of course,
it is “undisputed” that the search did not take

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20 22A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

place within the district. Maj. Op. at 1285.
Thus, the issue is whether the officials seeking
the warrant made this false representation
deliberately or recklessly. This issue turns on
what a reasonable officer standing in the shoes
of the officials in this case knew or should
have known. For this determination, we must
consider the totality of the circumstances.

II.
A.
When the totality of the circumstances is
considered, I have little doubt that a reasonable
FBI agent and federal prosecutor should have
known there was a jurisdictional problem. See
United States v. Martin, 297 F.3d 1308,
1318 (11th Cir. 2002) (holding that courts “can
look beyond the four corners of the affidavit
and search warrant to determine whether”
the good faith exception applies). Specifically,
the Justice Department's efforts to change
the Federal Rules of Criminal Procedure in
the wake of a similar failed FBI warrant
application in Texas should have made it clear
that jurisdiction would likely be an issue with
the NIT warrant.
In 2013—two years before the warrant
application in this case—the FBI applied to
a magistrate judge in Texas for a strikingly
similar warrant. See In re Warrant to Search
a Target Comput. at Premises Unknown, 958
F. Supp. 2d 753, 755 (S.D. Tex. 2013). The
FBI was attempting to identify “[u]nknown
persons” who committed bank fraud and
identity theft using “an unknown computer

at an unknown location.” Id. The warrant
sought authorization to “surreptitiously install”
software on the target computer that would
extract certain information and send it back to
“FBI agents within this district.”

Id.

In a published decision, the magistrate denied
the warrant application because the search
of the target computer would not take place
within the district. See id. at 756–58. The
court explained its decision: “Since the current
location of the Target Computer is unknown,
it necessarily follows that the current location
of the information *1295 on the Target
Computer is also unknown. This means that
the Government's application cannot satisfy the
Id. at
territorial limits of Rule 41(b)(1).” 3
757. The same logic applies to the NIT warrant.
3

The magistrate also found that the
warrant did not satisfy any of the other
territorial limits of Rule 41(b), though
it does not appear that the FBI claimed
to satisfy any provision other than Rule
41(b)(1). See

id. at 756–58.

Notably, unlike this case, the FBI addressed the
jurisdictional issue in its supporting affidavit to
the Texas magistrate. See id. at 756. The FBI
“readily admit[ted] that the current location
of the Target Computer [was] unknown,”
but nevertheless maintained that the search
would comply with Rule 41(b)(1) “ ‘because
information obtained from the Target Computer
will first be examined in this judicial district.’
”
Id. (quoting the FBI's affidavit). The
magistrate rightly rejected the FBI's argument,
pointing out that it would “stretch the territorial
limits of Rule 41(b)(1)” to absurd lengths: “By

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21 23A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

the Government's logic, a Rule 41 warrant
would permit FBI agents to roam the world in
search of a container of contraband, so long as
the container is not opened until the agents haul
it off to the issuing district.”

Id. at 757.

The point is that there was federal precedent
addressing the precise jurisdictional issue
raised by the NIT warrant. Thus, it is not
true, as several of our sister circuits have
suggested, that the jurisdictional issue was a
“novel question ... for which there was no
precedent on point.” United States v. Levin, 874
F.3d 316, 323 (1st Cir. 2017); see also United
States v. McLamb, 880 F.3d 685, 691 (4th Cir.
2018) (stating that officials seeking the NIT
warrant were “[w]ithout judicial precedent for
reference”), cert. denied, ––– U.S. ––––, 139 S.
Ct. 156, 202 L.Ed.2d 95 (2018).
Since the FBI sought the warrant in the Texas
case, it seems to fair to say that a reasonable
FBI agent seeking a similar warrant should
have been aware of the issues presented by
remote searches of unknown sources. Granted,
the FBI is a large organization, but the universe
of people involved in these cutting-edge search
warrants designed to uncover anonymous
computer users is surely much smaller. Plus, we
know that “the FBI consulted with attorneys at
the ... FBI's Remote Operations Unit” before
applying for the warrant.
McLamb, 880
F.3d at 689. Additionally, a reasonable federal
prosecutor who did any research into the legal
issues raised by the NIT warrant should have
come across the Texas case, so the Assistant
U.S. Attorney who reviewed the warrant should
have known about it. Thus, because of the
Texas case, the officials applying for the NIT
warrant should have been aware that there

was a potential problem with the magistrate's
jurisdiction to issue the warrant.
Of course, a magistrate's decision in Texas,
even in a published opinion, is not binding
precedent for a warrant application in Virginia.
I do not suggest that the Texas case foreclosed
officials from applying for the NIT warrant.
Prosecutors and the FBI could honestly
“believe that reasonable magistrate judges
could differ on the legality of the NIT.”
United States v. Werdene, 883 F.3d 204, 218
n.12 (3d Cir. 2018), cert. denied, ––– U.S.
––––, 139 S. Ct. 260, 202 L.Ed.2d 174 (2018).
For that reason, it would have been perfectly
acceptable for these officials to have applied for
the NIT warrant and explained to the magistrate
why they believed there was jurisdiction. But
it was unacceptable to ignore the jurisdictional
issue altogether—to repeatedly assert that the
search was within the district and fail to
mention to the magistrate the problems that led
another *1296 judge to deny a substantially
similar warrant. 4
4

The Werdene court suggested that the
Texas warrant is not analogous because
it was “significantly more invasive”
than the NIT warrant.
Werdene,
883 F.3d at 218 n.12. The more
invasive aspects of the Texas warrant
are why the magistrate in that case
found problems with the particularity
requirement and the constitutional
standards for video surveillance. See
In re Warrant, 958 F. Supp. 2d at
758–61. Those aspects had nothing
to do with the jurisdictional analysis.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22 24A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

See id. at 756–58. The jurisdictional
analysis applies equally here.
Moreover, the Texas case was not an isolated
occurrence. It had far-reaching consequences
that make it almost unthinkable that the
officials seeking the NIT warrant were unaware
of the jurisdictional problem.
Less than six months after the Texas decision,
the Justice Department sent a letter to the
Advisory Committee on the Criminal Rules
urging it to amend the rules to allow for
warrants like the one sought in the Texas case.
Letter from Mythili Raman, Acting Assistant
Att'y Gen., to Hon. Reena Raggi, Chair,
Advisory Comm. on the Crim. Rules (Sept.
18, 2013). Specifically, the Justice Department
proposed amending “Rule 41 of the Federal
Rules of Criminal Procedure to update the
provisions relating to the territorial limits for
searches of electronic storage media.” Id. The
amendment would permit magistrate judges to
issue warrants for remote searches for “crimes
involving Internet anonymizing technologies.”
Id. The letter cited the Texas case to justify the
rule change. Id.
While the committee considered the
proposed amendment, the Justice Department
continued to advocate for the change and
submitted several memorandums defending the
amendment. In one memo, dated about two
months before the NIT warrant, the Justice
Department explained as an example that
the amendment would “ensure that a court
is available” to issue warrants “investigating
members of a child pornography group”
using “the Tor network[ ] to hide from
law enforcement.” Memorandum from David
Bitkower, Deputy Assistant Att'y Gen., to

Hon. Reena Raggi, Chair, Advisory Comm.
on the Crim. Rules (Dec. 22, 2014). These
warrants would authorize “the use of the NIT”
to “identify the location of the individuals
accessing the site.” Id. Sound familiar?
Ultimately, the committee recommended
adopting the amendment, which became
effective on December 1, 2016. Memorandum
from Hon. Reena Raggi, Chair, Advisory
Comm. on Crim. Rules, to Hon. Jeffrey S.
Sutton, Chair, Comm. on Rules of Practice and
Proc. (May 6, 2015). The Justice Department's
extensive involvement in the rule change—
including the two highest ranking officials in
the Criminal Division—makes it hard to accept
that none of the Justice Department officials
involved in the NIT warrant was aware of the
jurisdictional issue. 5
5

While the majority finds dubious the
proposition that this knowledge could
be imputed to “downstream line-level
law enforcement officers” and finds no
deterrent effect in holding such officers
responsible for misleading magistrates
regarding the jurisdictional defects in
the warrant application, Maj. Op. at
–––– n.14, I disagree. I find it hard to
believe that Assistant U.S. Attorneys
are not kept abreast of existing
jurisdictional issues and the efforts
their office is taking to solve those
issues. I also find it hard to believe that
the “downstream line-level” officers
—who are doubtlessly experts in
these technologies and techniques—
were unaware of the misleading nature
of their statements of fact here. They
repeatedly suggested in the affidavit

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23 25A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

that a search would take place within a
particular district when the true goal of
the warrant was to search any relevant
computers, regardless of their location.
Therefore, contrary to the majority's
assertion that this argument is “based
entirely on speculation about what
different government actors could have
known,” id., I believe that the officers
here should have known that they were
acting improperly, which triggers the
exclusionary rule. See Herring, 555
U.S. at 143, 129 S.Ct. 695. The burden
should not rest on a magistrate to
comb through a deceptively crafted and
contradictory affidavit to detect the true
nature of the warrant request.
The Justice Department had a number of
connections to the NIT warrant. First of
all, there is the Assistant U.S. Attorney
*1297 who reviewed the warrant application.
The FBI also “consulted with attorneys
at the [Department's] Child Exploitation
and Obscenity Section” before applying for
the warrant.
McLamb, 880 F.3d at 689.
Significantly, as part of the same investigation
of Playpen, the FBI and the Justice Department
applied for a wiretap order on the same day that
they applied for the NIT warrant. The wiretap
order was to monitor the private message
and chat activity on Playpen. The affidavit
supporting the wiretap application included a
thorough discussion of the NIT warrant. The
same Assistant U.S. Attorney who reviewed
the NIT warrant applied for the wiretap order,
along with a trial attorney for the Department's
Child Exploitation and Obscenity Section. And
the Deputy Assistant Attorney General for
the Criminal Division approved the wiretap

application. Between the Texas case and the
rule change, surely at least one of these officials
should have known about the jurisdictional
issue.
The Texas case and the DOJ-requested rule
change show that a reasonable officer in the
shoes of the law enforcement officials seeking
the warrant should have known that there was
a jurisdictional issue. To be clear, I'm not
suggesting that the officials should have known
that the magistrate did not have jurisdiction
to issue the warrant. I'm suggesting that
because of these circumstances, they should
have known that the magistrate's jurisdiction
to issue the warrant was in doubt—that there
was a potential problem with jurisdiction. And
if they knew that there would be an issue with
jurisdiction, they had an obligation to flag it for
the magistrate. 6
6

The majority construes this argument
to place “an affirmative obligation
to ‘flag’ potential legal issues in
their [warrant] application.” Maj.
Op. at –––– n.15. The majority
disagrees with this approach, instead
concluding that “[l]aw-enforcement
officers have a duty to lay out
facts—including jurisdictional facts
—for reviewing courts, not to
anticipate and articulate possible
legal hurdles,” and finding that the
warrant application here “adequately
—if imperfectly—lay[ed] out the
facts.” Id. However, the majority
misunderstands the obligations I
propose. I suggest merely that, when
the officers and lawyers involved in
presenting the affidavit have reason

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24 26A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

to believe that they are requesting
a warrant that is improper, they not
conceal precedent which is entitled
to persuasive authority. Further, and
more importantly, I disagree with
the majority's characterization of the
application here as “imperfect” but
“adequate.” The application had the
tendency to deceive the magistrate
by presenting repeated assertions of
misleading facts, while burying the true
goal at the back of the affidavit. I
propose that law enforcement has the
obligation, at minimum, to avoid such
action.
B.
It is also clear that the officials seeking the
warrant knew that the search would not be
contained to the Eastern District of Virginia.
The FBI's investigation revealed that Playpen
had over 150,000 members and that the site
received over 11,000 unique users every week.
It would be absurd to believe that all of
the users' computers would be in the Eastern
District of Virginia. A reasonable official would
have believed, correctly as it turns out, that the
users' computers would be found in districts all
over the country. 7
7

The only connection to the Eastern
District of Virginia was the server that
hosted the site. But the server was
originally in North Carolina; the FBI
moved the server to Virginia. And the
site's administrator lived in Florida.
There truly was no reason to think the

site had a special connection to the
Eastern District of Virginia.
*1298 Granted, the NIT technology is
complex, and the uninitiated could be forgiven
for not understanding exactly what is being
searched and where that search would take
place. But no one could credibly argue that
the officials who developed the technology and
who were responsible for deploying it were
unclear about how it worked. The FBI knew
the search was of computers, and that those
computers could be anywhere.

III.
Having established that the officials seeking the
warrant knew or should have known that there
was a potentially fatal jurisdiction problem
with the warrant, let's take a closer look at how
they presented this issue to the magistrate. 8
8

A party does not need to provide direct
evidence that the false representation
was made deliberately or recklessly;
instead, the court can infer from
the warrant application itself that a
misrepresentation was deliberate or
reckless if it would be clear to a
reasonable official. Cf. Madiwale v.
Savaiko, 117 F.3d 1321, 1326 (11th
Cir. 1997) (“A party need not show by
direct evidence that the affiant makes
an omission recklessly. Rather, it is
possible that when the facts omitted
from the affidavit are clearly critical
to a finding of probable cause the
fact of recklessness may be inferred

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25 27A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

from proof of the omission itself.”)
(quotation omitted).
The caption to the warrant application states
that the search will be of “computers that
access” the Playpen website. Beneath the
caption, the FBI agent seeking the warrant
attests, under penalty of perjury, that he has
“reason to believe” the property to be searched
is “located in the Eastern District of Virginia.”
The application directs the reader to
“Attachment A” for a description of the
property to be searched. Attachment A, titled
“Place to be Searched,” explains that the
“warrant authorizes the use of a network
investigative technique (‘NIT’) to be deployed
on the computer server described below” to
obtain certain information “from the activating
computers described below.” Below, it explains
that the “computer server is the server
operating” the Playpen website, “which will be
located at a government facility in the Eastern
District of Virginia.” And it explains that the
“activating computers are those of any user or
administrator who logs into the [Playpen] by
entering a username and password.”
Thus, on the face of the warrant application,
officials informed the magistrate that the search
would be in the Eastern District of Virginia.
The application then seemingly supported this
assertion by noting that the server is in the
district—the only geographic reference in the
application.
True, an especially discerning magistrate might
have gathered that the search is of computers,
not of the server, so the location of the
server is irrelevant, and the computer of “any
user” could be outside the district. But the

question is not whether it was possible for the
magistrate to detect the error—the exclusionary
rule is concerned with police misconduct, not
magistrates' errors. See Leon, 468 U.S. at
916, 104 S.Ct. 3405. The question is whether
the magistrate was misled, and whether law
enforcement officials were responsible for the
deception. See id. at 923, 104 S.Ct. 3405.
Maybe the magistrate should have noticed. But
the officials who sought the warrant understood
the technology and how the search would work
better than anyone, and if anyone should have
noticed, it was they.
The affidavit supporting the warrant continues
the charade. It mentions repeatedly that the
server is located in the magistrate's district.
Here are a few examples:
• “Accordingly, I request authority to
use the NIT, which will be deployed
*1299 on the TARGET WEBSITE, while
the TARGET WEBSITE operates in the
Eastern District of Virginia, to investigate
any user or administrator who logs into
the TARGET WEBSITE by entering a
username and password.”
• “Under the NIT authorized by this
warrant, the TARGET WEBSITE, which
will be located in Newington, Virginia,
in the Eastern District of Virginia, would
augment [the content sent to visitor's
computers] with additional computer
instructions. When a user's computer
successfully downloads those instructions
from the TARGET WEBSITE, located
in the Eastern District of Virginia, the
instructions, which comprise the NIT”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26 28A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

will cause the user's computer to send
certain information to the FBI.
• “During the up to thirty day period that
the NIT is deployed on the TARGET
WEBSITE, which will be located in the
Eastern District of Virginia, each time
that any user or administrator logs into
the TARGET WEBSITE by entering a
username and password, this application
requests authority for the NIT authorized
by this warrant to attempt to cause
the user's computer to send the abovedescribed information to a computer
controlled by or known to the government
that is located in the Eastern District of
Virginia.”
The repeated emphasis of the server's location
is especially suspicious given that the location
of the server was completely irrelevant. The
search was of users' computers, not of the
server.
Why, then, did the affidavit repeatedly mention
the server's location? It smacks of desperation,
and it appears calculated to lull the magistrate
into a false sense of jurisdictional security. I can
think of no other reason to include so irrelevant
a piece of information so many times.
In contrast, the affidavit is nearly silent on
the decisive data point: the location of the
computers. It is only on page 29 of 31 that
the affidavit finally acknowledges (somewhat
explicitly) that “the NIT warrant may cause
an activating computer—wherever located—
to send to a computer controlled by or
known to the government” the information
sought. This is the closest law enforcement
comes to advising the magistrate that the

search will occur outside the district. As a
disclosure, it leaves much to be desired. The
affidavit mentions this detail once, without
any explanation of its impact. It does not say
that, therefore, the search might occur outside
the Eastern District of Virginia. It forces the
magistrate to draw the conclusion. It is a
breadcrumb, buried in a dense and complicated
affidavit, left for the magistrate to follow.
In other warrant applications, law enforcement
officials were not nearly so stingy with
information about jurisdiction. For example,
in the Texas case, the government confronted
the jurisdiction problem and supplied the
magistrate with an argument in the affidavit
for why it thought there was jurisdiction. See
In re Warrant, 958 F. Supp. 2d at 756. Courts
should expect nothing less.
Even in the wiretap application—submitted
simultaneously with the NIT application
by the same Assistant U.S. Attorney—the
application included a paragraph detailing
the jurisdictional basis for the warrant, even
though the jurisdiction for that order was
straightforward and uneventful. 9 Here, in
contrast, where there *1300 was a major
problem with jurisdiction, any mention of
jurisdiction is conspicuously absent. Why
would the same attorney include a discussion
of jurisdiction in one application, where it was
less important, and omit any such discussion
from another, where it was more important? It is
hard to escape the conclusion that the officials
seeking the warrant aimed to conceal the issue.
9

Here is what the wiretap application
said about jurisdiction: “This Court
has territorial jurisdiction to issue the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27 29A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

requested order under 18 U.S.C. §
2518(3) because the computer server
intercepting all communications and
on which the TARGET WEBSITE,
including the TARGET FACILITIES,
are located will be in Newington, VA,
in the Eastern District of Virginia
during the period of inspection.”
The comparison with these other examples
illustrates why the officials in this case did
not do what we “hope and expect” of law
enforcement. Maj. Op. at ––––. The disclosure
in the affidavit was woefully inadequate.
The warrant's defenders argue that the
disclosure on page 29 “cured” the warrant
of any ambiguity. See, e.g., McLamb, 880
F.3d at 690–91 (“To the extent the form is
misleading, [the affidavit] cured any ambiguity
by informing the magistrate judge that the NIT
would cause activating computers ‘wherever
located’ to transmit data to the FBI.”). First
of all, it's odd to say that the disclosure cured
the warrant. The disclosure that the warrant
authorized searches of computers “wherever
located” is the fatal flaw; it's the reason the
magistrate didn't have jurisdiction to approve
the warrant. How could revealing the fatal flaw
cure the warrant?
More accurately, the suggestion is that
by eventually and indirectly revealing the
warrant's defect, the officials seeking the
warrant absolved themselves of any bad faith.
In other words, law enforcement officials
cannot be accused of bad faith so long as
they technically, no matter how discreetly,
disclose the truth somewhere in the warrant
application. This sets too low a bar. It
essentially gives officials permission to try to

hoodwink magistrates: they can make false
statements to the court so long as they
include enough information to uncover their
chicanery. If the magistrate fails to spot the
issue, officials can cloak themselves in good
faith reliance and execute the warrant without
fear of suppression. I refuse to invite such
gamesmanship. If law enforcement officials
know of a problem with their warrant, they need
to be forthcoming about it.
Here's the other problem with the “cure”
argument: If the language in the application
might have been enough to show the magistrate
that the search would not be in the district,
surely it was enough to reveal the same to
the officials seeking the warrant. After all,
wouldn't we expect the author to understand his
writing better than the reader—especially when
the subject concerns an exceedingly complex
technology with which the author is familiar
and the reader is not? And once the officials
realize the problem, they need to address it,
otherwise they are misleading the magistrate.
Furthermore, the argument that the application
disclosed enough for the magistrate to discover
the defect answers the wrong question. It
focuses on whether the magistrate should have
United States v.
spotted the issue. Cf.
Horton, 863 F.3d 1041, 1052 (8th Cir. 2017)
(“Even if it were misleading to label the place to
be searched as the Eastern District of Virginia,
a reasonable reader would have understood
that the search would extend beyond the
boundaries of the district because of the
thorough explanation provided in the attached
affidavit.”) (emphasis added), cert. denied, –––
U.S. ––––, 138 S. Ct. 1440, 200 L.Ed.2d 721
(2018). But, again, the exclusionary rule is

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28 30A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

concerned with curbing “police rather than
judicial misconduct.” Herring, 555 U.S. at
142, 129 S.Ct. 695. Thus, the proper question
is, given *1301 what the officials knew or
should have known, was it deliberately or
recklessly misleading to present the application
the way that they did. Put differently, did they
consciously disregard a serious risk that the
magistrate would think the search would occur
in the Eastern District of Virginia? It's plain to
me that they did.
If the officials knew that the search would
be of computers outside the district, it was
unacceptable to swear that the search would
be within the district. If, perhaps, the officials
had some other reasonable basis for believing
that the search was still within the magistrate's
jurisdiction, they needed to present it to the
magistrate. It would be recklessly misleading
to submit a warrant application to a magistrate
repeatedly stating the search would be within
the district, with one buried caveat, when the
officials' only reason for stating that is some
novel theory they declined to share with the
magistrate.
Tellingly, at no point in this appeal, nor
to our knowledge in any of the other
appeals concerning the NIT warrant, has
the government defended the warrant on the
grounds that the search did in fact occur in the
Eastern District of Virginia. How could they?
Instead, the government has argued that the
NIT search functioned like a tracking device
that was installed within the district, and thus
satisfied Federal Rule of Criminal Procedure
41(b)(4). A number of district courts have
accepted this argument. See United States v.
Workman, 863 F.3d 1313, 1321 n.5 (10th Cir.

2017) (listing cases), cert. denied, ––– U.S.
––––, 138 S. Ct. 1546, 200 L.Ed.2d 748 (2018).
In light of these district court decisions, several
of our sister circuits have said that they will not
fault law enforcement for thinking there was
jurisdiction when a number of federal judges
have made the same mistake. See, e.g., United
States v. Moorehead, 912 F.3d 963, 970 (6th
Cir. 2019) (“But reasonable jurists have come
to different conclusions about whether the
NIT Warrant was valid. We cannot, therefore,
expect officers to have known that this type of
warrant was invalid at the time it was sought.”)
(citations omitted), petition for cert. filed (U.S.
May 20, 2019) (No. 19-5444). 10
10

Some of the courts making this point
are actually responding to a different
argument. In those cases, the argument
was that the officers executing the
warrant were not entitled to good
faith, because the warrant was plainly
invalid on its face. See, e.g., United
States v. Henderson, 906 F.3d 1109,
1119 (9th Cir. 2018) (“[O]ne is left to
wonder how an executing agent ought
to have known that the NIT warrant
was void when several district courts
have found the very same warrant
to be valid.”) (emphasis added), cert.
denied, ––– U.S. ––––, 139 S. Ct.
2033, 204 L.Ed.2d 232 (2019). I agree
with these courts that it was objectively
reasonable for the executing officers to
rely on the warrant and to defer to the
magistrate's judgment that there was
jurisdiction to issue the warrant.

After the fact, courts can uphold a warrant on
any basis. That same luxury should not extend

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29 31A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

to a good-faith analysis of the officials who
sought the warrant. The FBI agent swore in
the warrant application that he had “reason to
believe” the property to be searched was in the
Eastern District of Virginia. An official cannot
make that representation if he does not actually
have a reason, but is instead hoping for the
magistrate to find one. Thus, the suggestion that
because a few courts have upheld the warrant
on a tracking-device theory it was reasonable
for the officials seeking the warrant to believe
there was jurisdiction, requires the assumption
that the officials believed there was jurisdiction
for the warrant on a tracking-device theory.
The problem with this logic is that law
enforcement did not seek, nor did they obtain,
a tracking-device warrant. See Maj. Op. at
––––. To obtain a tracking-device warrant, law
enforcement uses a different *1302 form from
the one used for typical searches within the
district. Compare Administrative Office of U.S.
Courts, Criminal Form AO 102, Application
for a Tracking Warrant (2009), with Criminal
Form AO 106, Application for a Search
Warrant (2010), https://www.uscourts.gov/
forms/criminal-forms (last visited August 19,
2019).
A reasonable law enforcement official,
especially an FBI agent with 19 years of
experience, would understand the difference
between a tracking-device warrant and a search
warrant. A reasonable official would know
that if the jurisdictional basis for the warrant
was a tracking-device theory, he should seek
a tracking-device warrant, or at least make the
magistrate aware of the theory some other way.
Bottom line: it is objectively unreasonable for
law enforcement to believe there is jurisdiction

on the basis of a warrant they did not seek and
a theory they did not present.
***
To recap, the officials knew or should have
known that there was a jurisdiction problem
with the warrant. And they knew the search
would not be within the district. If the
search was of computers outside the district,
the only possible basis for believing the
magistrate had jurisdiction to issue the warrant
would have been a tracking-device theory.
But a reasonable official would know the
warrant was not a tracking-device warrant,
and it would be recklessly misleading to
seek a regular search warrant based on a
tracking-device theory without at least alerting
the magistrate to the theory. As such, it
appears to me that a reasonable official in
these circumstances would have no basis for
believing the magistrate had jurisdiction.
Even assuming the officials believed there
was jurisdiction, the warrant application was
misleading. The application states repeatedly
that the search would be in the district, even
though they knew the search would be of
computers outside the district. They repeatedly
emphasized the location of the server, which
was irrelevant, and completely omitted any
discussion of jurisdiction. The late disclosure
that the computers could be “wherever located”
did not eliminate the risk that the magistrate
would be misled and did not give the officials
license to make disingenuous representations
elsewhere. For these reasons, I believe the
officials deliberately or recklessly misled the
magistrate.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30 32A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

IV.
Whether the exclusionary rule should apply is,
ultimately, a question of whether the benefits of
deterrence outweigh the costs of suppression.
See Herring, 555 U.S. at 141, 129 S.Ct.
695. The costs—excluding reliable evidence
and possibly allowing the guilty to go free—are
high. Davis, 564 U.S. at 237, 131 S.Ct. 2419
(“[Exclusion] almost always requires courts to
ignore reliable, trustworthy evidence bearing
on guilt or innocence. And its bottom-line
effect, in many cases, is to suppress the truth
and set the criminal loose in the community
without punishment.”) (citation omitted). But
what about the other side of the scale? What are
the benefits of deterrence in this case?
Other courts have given short shrift to the
benefits of deterrence in this case. They claim
there is minimal deterrent value because (1) the
blame lies with the magistrate for approving
the warrant, and (2) the NIT warrant would
now be lawful after the rule change. See, e.g.,
Moorehead, 912 F.3d at 970–71 (“The fact
that any jurisdictional error here was made by
the magistrate, coupled with the fact that Rule
41(b) has been amended to authorize warrants
like the one at issue, means the benefits
of deterrence cannot outweigh the costs.”)
(quotation omitted). This misses the point. If
the officials who sought the *1303 warrant
are culpable for misleading the magistrate,
the fault lies with them. And the object of
suppression would be to deter law enforcement
from misleading magistrates in the future, not
to prevent warrants like this one from issuing.

There is a reason the Supreme Court has said
that if police conduct is deliberate, reckless,
or grossly negligent, “the deterrent value of
exclusion is strong and tends to outweigh the
resulting costs.”
Davis, 564 U.S. at 238,
131 S.Ct. 2419. If courts decline to invoke
the exclusionary rule in the face of culpable
misconduct, we condone and encourage it.
We effectively establish a new standard for
law enforcement. Thus, even though the NIT
warrant would not be valid, this will not be the
last time that law enforcement officials mislead
a magistrate in their quest for a warrant of
dubious validity.
With this case, ten courts of appeals have
sanctioned the following standard: When law
enforcement officials apply for a warrant, even
if they know the warrant is constitutionally
suspect, so long as they technically disclose
the facts that would reveal the problem to a
discerning magistrate, no matter how cursory or
buried the disclosure, the warrant is effectively
unimpeachable if the magistrate fails to detect
the problem. I cannot believe that the law
expects so little of law enforcement, or so much
of magistrates.
This standard creates a warped incentive
structure. It encourages law enforcement to
obscure potential problems in a warrant
application. Because officials can be less
upfront about problems in a warrant
application, the onus is on the magistrate to
spot the issues. But it is well-established that
if a magistrate makes a mistake—e.g., misses
an issue, gets the law wrong—that mistake will
almost always be forgiven because the police
can generally rely on an approved warrant
in good faith. See

Leon, 468 U.S. at 922,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31 33A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

104 S.Ct. 3405. This is a system designed to
encourage mistakes.
Instead, we should demand the utmost candor
in warrant applications. Before today, I thought
we did. The warrant process is premised on the
good faith of law enforcement. See Franks v.
Delaware, 438 U.S. 154, 164, 98 S.Ct. 2674, 57
L.Ed.2d 667 (1978) (“[T]he Warrant Clause ...
surely takes the affiant's good faith as its
premise ....”). It is “unthinkable” that a warrant
application, “revealed after the fact to contain a
deliberately or reckless false statement,” would
be beyond “impeachment.” Id. at 165, 98
S.Ct. 2674. Indeed, if law enforcement officials
were permitted to deliberately or recklessly
include false representations in the warrant
application, “and, having misled the magistrate,
then [were] able to remain confident that the
ploy was worthwhile,” it would neuter the
Fourth Amendment.
2674.

Id. at 168, 98 S.Ct.

Similarly, candor underpins the rationale for
the good faith exception. We extend good faith
to police executing the warrant because they
are entitled to presume that magistrates are
competent. See Messerschmidt v. Millender,
565 U.S. 535, 547–48, 132 S.Ct. 1235, 182
L.Ed.2d 47 (2012). But there is no reason
to defer to magistrates' judgments if law
enforcement officials do not present the court
with the full and accurate picture. See Leon,
468 U.S. at 914–15, 104 S.Ct. 3405 (stating
that courts should not defer to a warrant when
the magistrate's determination was based on
a “knowing or reckless falsity” or when the
magistrate was not presented with “[s]ufficient
information”).

It is especially important to demand candor in
warrant applications. The warrant application
process is ex parte, which increases the risk that
false information will be accepted or problems
will be overlooked. *1304 See Franks, 438
U.S. at 169, 98 S.Ct. 2674 (“The usual reliance
of our legal system on adversary proceedings
itself should be an indication that an ex parte
inquiry is likely to be less vigorous.”). That
risk, in turn, creates a temptation to withhold
or obscure unfavorable information. See id.
(“The magistrate has no acquaintance with
the information that may contradict the good
faith and reasonable basis of the affiant's
allegations.”).
I also don't think candor is too much to ask
for. When executing a warrant, police are
making decisions in real time. Plus, typically,
they are not lawyers, so we don't expect them
to have as much knowledge of the law as
a magistrate reviewing a warrant application
from the comfort of her chambers. These
considerations do not apply, at least not to
the same extent, to officials seeking a warrant.
Generally, these officials have just as much, if
not more, time for reflection while preparing
the application, as the magistrate does while
reviewing it. And in the frequent cases where
police work with prosecutors to prepare a
warrant application, it is fair to expect them to
have a greater knowledge of the law.
I'm not advocating to change the law—the law
already requires candor in warrant applications.
I'm asking courts to take this requirement
seriously.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

32 34A

United States v. Taylor, 935 F.3d 1279 (2019)
28 Fla. L. Weekly Fed. C 208

When the Supreme Court established the
good faith exception, the principal dissent
warned that it would “put a premium on
police ignorance of the law.”
Leon, 468
U.S. at 955, 104 S.Ct. 3405 (Brennan, J.,
dissenting). Justice Brennan predicted that in
close cases “police would have every reason to
adopt a ‘let's-wait-until-it's-decided’ approach
in situations in which there is a question about a
warrant's validity or the basis for its issuance.”
Id. With this decision, his premonition has
come true.
***
I recognize that my decision would have
an unfortunate result. It would invalidate a
warrant that led to the arrest and prosecution of
hundreds who trafficked in child pornography.
And it would suppress the evidence gathered
under that warrant's authority, likely leading
End of Document

to the release of many of those offenders. But
this unfortunate result is almost always the
consequence when relevant, damning evidence
is excluded. Such a result is the price we pay
to protect the Fourth Amendment rights of
the public. Therefore, we must follow the law
even when faced with unpleasant outcomes.
Otherwise, we excuse conduct, like the conduct
at issue here, which invites strategic duplicity
into the warrant process.
Because today's decision undermines the
integrity of the warrant process—a process
which plays a crucial role in protecting
the rights guaranteed by our Constitution—I
respectfully dissent.
All Citations
935 F.3d 1279, 28 Fla. L. Weekly Fed. C 208

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

33 35A

